Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ADVERSE EVENTS IN HOSPITALS:
       METHODS FOR
    IDENTIFYING EVENTS




                    Daniel R. Levinson
                     Inspector General

                       March 2010
                     OEI-06-08-00221
        E X E C U T I V E                                     S U M M A R Y


                               OBJECTIVE
                               To evaluate the usefulness of selected methods for identifying events
                               that harm hospitalized Medicare beneficiaries.


                               BACKGROUND
                               The term “adverse event” describes harm to a patient as a result of
                               medical care or harm that occurs in a health care setting. The term
                               “never events” refers to a specific list of serious events, such as surgery
                               on the wrong patient, that the National Quality Forum deemed “should
                               never occur in a healthcare setting.” The Tax Relief and Health Care
                               Act of 2006 (the Act) mandated that the Office of Inspector General
                               (OIG) report to Congress about such events, including making
                               recommendations about processes for identifying events. To meet the
                               requirements of the Act, OIG published a series of reports in 2008 and
                               will publish additional reports based on ongoing work.

                               In 2008, we conducted a case study to determine the incidence of
                               adverse events (hereinafter referred to as events) by reviewing a
                               random sample of 278 Medicare beneficiary hospitalizations selected
                               from all Medicare discharges from acute care hospitals in two selected
                               counties during a 1-week period in August 2008. Using a two-stage
                               review process, the case study identified 120 events. The first stage
                               consisted of using five selected methods to screen for events, including
                               nurse reviews of medical records, interviews of Medicare beneficiaries,
                               two types of billing data analysis, and reviews of internal hospital
                               incident reports. Each time a screening method indicated the possibility
                               that an event occurred during the hospitalization, we designated the
                               possible event as a “flag.” The second stage consisted of physician
                               reviews of medical records for 183 of the 278 beneficiary
                               hospitalizations—those with at least 1 flag. This report provides an
                               indepth examination of the usefulness of the five screening methods
                               used for identifying events. We considered the most useful methods to
                               be those that identified the greatest number of events.


                               FINDINGS
                               The five screening methods were useful in identifying events that
                               harmed patients; however, most flags were not associated with
                               events. Physician reviews determined that 256 of the 662 flags
                               (39 percent) generated by the screening methods were associated with

O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS      i
E X E C U T I V E                          S U M M A R Y


                                1 or more of the 120 events found by the case study. Nurse reviews and
                                one type of billing data analysis identified the greatest number of
                                events. Although the five screening methods helped to identify events,
                                they also generated many flags (61 percent) that were not associated
                                with events.
                                Shortcomings in two screening methods have implications for
                                Medicare payments and Federal initiatives to identify, track, and
                                monitor events. Our analysis revealed vulnerabilities regarding both
                                accuracy and completeness of two critical sources of information about
                                events. Through analysis of the billing data, we found that diagnosis
                                codes were inaccurate or absent for 7 of the 11 Medicare hospital-
                                acquired conditions identified by the case study. These problems would
                                prevent Medicare’s automated payment software from identifying the
                                hospital-acquired conditions, which could result in Medicare
                                overpayments and inhibit use of billing data to monitor quality of care
                                in hospitals. We also found that hospitals participating in the case
                                study apparently did not have any internal incident reports for 112 of
                                the 120 events (93 percent), including some of the most serious events
                                involving death or permanent disability to the patients. The lack of
                                such reports could prevent hospitals from tracking events as required by
                                regulation or reporting events to outside entities. It also suggests that
                                hospital incident-reporting systems may be an unreliable source of
                                information for Patient Safety Organizations (PSO), which are entities
                                that aggregate and analyze information about events voluntarily
                                reported by hospitals.


                                RECOMMENDATIONS
                                Overall, the case study findings suggest that an effective way to identify
                                events is through review of medical records by nurses and/or physicians,
                                whereas other screening methods identified far fewer events.
                                Additionally, it demonstrated opportunities to address shortcomings that
                                limited the usefulness of some screening methods.

                                Therefore, we recommend to the Centers for Medicare & Medicaid
                                Services (CMS) and the Agency for Healthcare Research and Quality
                                (AHRQ) that:
                                CMS and AHRQ should explore opportunities to identify events
                                when conducting medical record reviews for other purposes.
                                Examples of such efforts include, but are not limited to: CMS’s Medicare
                                Comprehensive Error Rate Testing and the work of Quality Improvement

 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS    ii
E X E C U T I V E                          S U M M A R Y


                                Organizations; AHRQ grant awards for patient safety research; and State
                                survey agency work in certifying hospital compliance with the Medicare
                                conditions of participation.
                                CMS should ensure that hospitals code claims accurately and
                                completely to allow for identification of hospital-acquired conditions
                                affected by Medicare’s payment policy. To identify Medicare hospital-
                                acquired conditions, CMS relies on hospitals to code diagnoses and
                                present on admission (POA) indicators (which indicate whether
                                diagnoses were present upon admission). CMS should determine
                                whether additional guidance is needed to ensure that hospitals code
                                diagnoses and POA indicators accurately and completely.
                                CMS should provide interpretive guidelines for State survey
                                agencies to assess hospital compliance with requirements to track
                                and monitor adverse events. The CMS State Operations Manual
                                contains no guidance to State survey agencies regarding assessing
                                hospital compliance with Federal requirements to track and monitor
                                events; therefore, it is unclear how surveyors are to assess hospitals’
                                compliance.
                                AHRQ should inform PSOs that internal hospital incident reporting
                                may be insufficient to provide needed information about events to
                                PSOs. As the key Federal agency involved with PSOs, AHRQ indicated
                                that PSOs will rely primarily upon hospitals for identifying, tracking,
                                and reporting information about events. However, we found that
                                hospital incident reports existed for only 8 of the 120 events identified
                                in the case study. In providing technical assistance to support PSOs,
                                AHRQ should convey the importance of hospitals’ having strong
                                internal incident-reporting procedures.


                                AGENCY COMMENTS
                                We received comments on our draft of this report from AHRQ and CMS.

                                AHRQ concurred with the report as written.

                                CMS stated that it agrees with recommendations relevant to its
                                programs.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   iii
   T A B L E           O F            C O N T E N T S



         EXECUTIVE SUMMARY ................................. i


         INTRODUCTION ......................................... 1


         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                   The five screening methods were useful in identifying events
                   that caused harm; however, most flags were not associated with
                   events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                   Shortcomings in two screening methods have implications for
                   Medicare payments and Federal initiatives to identify, track,
                   and monitor events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                   Agency Comments and Office of Inspector General Response . . . 19



         S C R E E N I N G M E T H O D S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
                   A: Tax Relief and Health Care Act of 2006 . . . . . . . . . . . . . . . . . . 29

                   B: Medicare List of Hospital-Acquired Conditions . . . . . . . . . . . . 31

                   C: Glossary of Selected Clinical Terms . . . . . . . . . . . . . . . . . . . . . 32

                   D: Case Study Protocol for Nurse Reviews . . . . . . . . . . . . . . . . . . 34

                   E: Medicare Beneficiary Interview Questions . . . . . . . . . . . . . . . . 36

                   F: Patient Safety Indicators . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

                   G: Case Study Protocol for Physician Reviews . . . . . . . . . . . . . . . 41

                   H: Results of Screening Methods . . . . . . . . . . . . . . . . . . . . . . . . . . 48

                   I: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54
        I N T R O D U C T I O N


                               OBJECTIVE
                               To evaluate the usefulness of selected methods for identifying events
                               that harm hospitalized Medicare beneficiaries.


                               BACKGROUND
                               Statutory Mandate and Office of Inspector General Response
                               The Tax Relief and Health Care Act of 2006 (the Act) requires that the
                               Office of Inspector General (OIG) report to Congress regarding the
                               incidence of “never events” among Medicare beneficiaries, payment by
                               Medicare or beneficiaries for services furnished in connection with such
                               events, and the processes that the Centers for Medicare & Medicaid
                               Services (CMS) uses to identify such events and deny or recoup
                               payment. 1, 2 (For relevant text of the Act, see Appendix A.) The Act
                               also requires that OIG make recommendations, as appropriate,
                               regarding processes for identifying such events. To meet the
                               requirements of the Act, OIG published a series of reports and will
                               publish additional reports based on ongoing work. 3
                               Expanding beyond the term “never events,” OIG studies use the term
                               “adverse event” to allow for a more comprehensive examination of the
                               topic. As used in these studies, the term “adverse event” describes harm
                               to a patient as a result of medical care or harm that occurs in a health
                               care setting. Although an adverse event often indicates that the care
                               resulted in an undesirable clinical outcome and may involve medical
                               errors, adverse events do not always involve errors, negligence, or poor
                               quality of care and may not always be preventable. 4


                                 1 The Act, P.L. 109-432 § 203.
                                 2 For purposes of the Act, the term “never events” means “an event that is listed and
                               endorsed as a serious reportable event by the National Quality Forum (NQF) as of
                               November 16, 2006.” The Act, § 203(d). The NQF used the term “Serious Reportable
                               Events” to describe a specific list of events associated primarily with patient death or
                               serious disability that “should never occur in a healthcare setting.” These colloquially
                               became known as “never events.” Available online at
                               http://www.qualityforum.org/Topics/Safety.aspx. Accessed on August 12, 2009.
                                 3 OIG, Adverse Events in Hospitals: Overview of Key Issues, OEI-06-07-00470,
                               December 2008; OIG, Adverse Events in Hospitals: State Reporting Systems;
                               OEI-06-07-00471, December 2008; and OIG, Adverse Events in Hospitals: Case Study of
                               Incidence Among Medicare Beneficiaries in Two Counties, OEI-06-08-00220,
                               December 2008; OIG, Adverse Events in Hospitals: Public Disclosure of Information About
                               Events, OEI-06-09-00360.
                                 4 R.M. Wachter,       Understanding Patient Safety, McGraw-Hill, 2008.



O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                        1
I N T R O D U C T I O N


                                Following a review of Medicare policies and expenditures, as well as
                                consultation with officials from CMS and the Agency for Healthcare
                                Research and Quality (AHRQ), we chose to focus much of our work on
                                inpatient acute care hospitals. In 2006, 12.5 million Medicare
                                beneficiaries were hospitalized, 5 with inpatient hospital costs
                                constituting the largest portion of Medicare expenditures (32 percent in
                                2006). 6 Federal regulations require that hospitals, as a condition of
                                participation in the Medicare and Medicaid programs, develop and
                                maintain a quality assessment and performance improvement (QAPI)
                                program. 7 As a part of the QAPI program, hospitals must “measure,
                                analyze, and track quality indicators, including adverse patient
                                events.” 8 To accomplish this, hospitals must “track medical errors and
                                adverse patient events, analyze their causes, and implement preventive
                                actions and mechanisms that include feedback and learning throughout
                                the hospital.” 9 State health agencies, otherwise referred to as State
                                survey agencies, perform survey and review functions for Medicare and
                                certify that hospitals comply with these Federal requirements. 10
                                Hospitals may also report information about adverse events to various
                                entities, such as Patient Safety Organizations (PSO), which seek to
                                improve quality of patient care by identifying and reducing the risks
                                and hazards associated with care. 11, 12 PSOs must certify that they


                                  5 CMS,   Statistics Book, p. 43, Table IV.1: Medicare/short-stay hospital utilization,
                                2008.
                                  6 Based on data from the Congressional Budget Office (CBO), “Fact Sheet for CBO’s
                                March 2007 Baseline: Medicare,” March 7, 2007. Available online at
                                http://www.cbo.gov/budget/factsheets/2007b/medicare.pdf. Accessed on September 8, 2008.
                                  7 42 CFR § 482.21. In the preamble to the final rule adding QAPI to the conditions of
                                participation, CMS said QAPI focuses providers on the care delivered to patients, the
                                performance of the hospital as an organization, and the effect of treatment.
                                68 Fed. Reg. 3435 (Jan. 24, 2003).
                                  8 42 CFR § 482.21(a)(2).
                                  9 42 CFR § 482.21(c)(2).
                                  10 42 CFR § 488.10. Providers accredited by an accreditation organization are deemed to
                                be in compliance with Medicare conditions of participation. 42 CFR § 488.5.
                                  11 Sections 923 and 924 of the Public Health Service Act, which were added by the
                                Patient Safety and Quality Improvement Act of 2005, required the Department of Health
                                and Human Services (HHS) to determine that PSOs meet certain criteria to perform
                                “patient safety activities” and establish a Network of Patient Safety Databases to receive,
                                analyze, and report on patient safety information submitted by the PSOs. Patient Safety
                                and Quality Improvement Act of 2005, P.L. 109-41 § 2, Public Health Service Act, §§ 923
                                and 924, 42 U.S.C. §§ 299b-23 and 24.
                                  12 Other entities, such as States operating adverse event reporting systems and the Joint
                                Commission, also accept reports from hospitals regarding adverse events.



 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                           2
I N T R O D U C T I O N


                                have policies and procedures in place to perform “patient safety
                                activities,” such as aggregation and analysis of reported events received
                                from hospitals that voluntarily report patient safety information. 13 The
                                Secretary of Health & Human Services has delegated to AHRQ the
                                responsibility for determining whether certifications submitted by
                                entities seeking to be PSOs meet Federal requirements. 14 The
                                Secretary may also provide technical assistance to PSOs on matters
                                such as methodology, communication, data collection, or privacy
                                concerns. 15 An AHRQ-funded study found that 98 percent of hospitals
                                reported having adverse event reporting systems and nearly all
                                hospitals have safety and quality functions that would facilitate
                                participating in a PSO. 16 HHS indicated that PSOs would rely
                                primarily on “existing hospital activities,” such as internal procedures
                                for identifying and reporting adverse events. 17
                                Present on Admission Indicators and Medicare’s Hospital-Acquired
                                Conditions Policy
                                Since October 1, 2007, hospitals have been required to assign a present
                                on admission (POA) indicator to each principal and secondary diagnosis
                                for acute Inpatient Prospective Payment System (IPPS) claims for all
                                discharges. 18 This was an initial step in complying with the Deficit
                                Reduction Act of 2005 (DRA), which required CMS to select at least two
                                hospital-acquired conditions for which hospitals would not be paid
                                higher Medicare reimbursement than if the conditions had not occurred
                                for discharges occurring on or after October 1, 2008. 19 In the fiscal year
                                (FY) 2009 IPPS Final Rule, CMS established the Medicare policy to
                                deny hospitals higher payment for hospital admissions complicated by
                                any of 10 categories of hospital-acquired conditions, that is, conditions
                                that were not present upon admission. 20 Appendix B contains a list of
                                these 10 hospital-acquired conditions.



                                  13 Public Health Service Act, § 924(a), 42 U.S.C. § 299b-24(a).
                                  14 73 Fed. Reg. 70732 (Nov. 21, 2008).
                                  15Public Health Service Act, § 925, 42 U.S.C. § 922b-25.
                                  16 73 Fed. Reg. 70732, 70793 (Nov. 21, 2008).
                                  17 Ibid.
                                  18 CMS, CMS Manual System, Change Request 5679 (July 20, 2007).
                                  19 DRA, P.L. 109-171 § 5001(c)(1), Social Security Act, § 1886(d)(4)(D),
                                42 U.S.C. § 1395ww(d)(4)(D).
                                  20 FY 2009 Final IPPS Rule, 73 Fed. Reg. 48434, 48471-48491 (Aug. 19, 2008).
                                Effective October 1, 2008, CMS began denying hospitals higher payment for Medicare



 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                  3
I N T R O D U C T I O N


                                Efforts by CMS to identify and deny payment for certain adverse events
                                are part of a broader quality improvement initiative. In 2005, CMS
                                released its Quality Improvement Roadmap, which expressed a vision
                                for health care quality—“The right care for every person every time.”21
                                To achieve this vision, CMS stated its commitment to safe, effective,
                                timely, patient-centered, efficient, and equitable medical care. A central
                                part of quality improvement is the value-based purchasing (VBP)
                                initiative, which ties payment to quality medical care. Medicare’s
                                hospital-acquired conditions policy is part of the VBP initiative. 22
                                In the preamble to the FY 2009 IPPS Proposed Rule, CMS indicated
                                that evaluating POA indicators in Medicare billing data could be used to
                                better understand and prevent the occurrences of hospital-acquired
                                conditions. CMS posed that this information could be used to measure
                                hospital performance as part of the VBP program. Such information
                                could also be publicly reported, enabling consumers to make more
                                informed choices about their health care. Additionally, CMS indicated
                                that researchers could use POA data in a variety of ways to increase
                                understanding and identify best practices for prevention of hospital-
                                acquired conditions. 23
                                Case Study of Events That Harmed Hospitalized Medicare Beneficiaries
                                To best respond to the Act, we conducted a pilot study in 2008 to
                                determine the incidence of adverse events among the Medicare
                                population in two selected counties so that we could learn about various
                                methods for identifying adverse events. The results of that study,
                                Adverse Events in Hospitals: Case Study of Incidence Among Medicare
                                Beneficiaries in Two Counties (hereinafter referred to as “case study”),
                                are the basis of this report. 24
                                In the case study, we found that an estimated 15 percent of hospitalized
                                Medicare beneficiaries in two selected counties experienced adverse

                                admissions complicated by these conditions. CMS, CMS Manual System, Change
                                Request 6189 (October 3, 2008).
                                  21 CMS  Quality Improvement Roadmap. Available online at
                                http://www.cms.hhs.gov/CouncilonTechInnov/downloads/qualityroadmap.pdf. Accessed on
                                June 30, 2009.
                                   22 FY 2009 Final IPPS Rule, 73 Fed. Reg. 48434, 48471 (Aug. 19, 2008); CMS, “Roadmap
                                for Implementing Value Driven Healthcare in the Traditional Fee-for-Service Program,”
                                pp. 10-12.
                                  23 FY 2009 Proposed IPPS Rule, 73 Fed. Reg. 23528, 23561 (Apr. 30, 2008).
                                  24 OIG, Adverse Events in Hospitals: Case Study of Incidence Among Medicare
                                Beneficiaries in Two Counties, OEI-06-08-00220, December 2008.



 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                   4
I N T R O D U C T I O N


                                events that resulted in harm during their hospital stays. 25 The case
                                study was based on a random sample of 278 Medicare beneficiary
                                hospitalizations selected from all Medicare discharges from acute care
                                hospitals in two selected counties during a 1-week period in August
                                2008. We calculated the estimated adverse event incidence rate as the
                                percentage of Medicare beneficiaries with at least one qualifying
                                adverse event.

                                Qualifying adverse events met one or more of the following criteria:

                                1.       included in NQF’s list of Serious Reportable Events;

                                2.       included in Medicare’s list of hospital-acquired conditions; and

                                3.       resulted in a level of patient harm determined by physician
                                         reviewers to be associated with a prolonged hospital stay,
                                         permanent harm, life-sustaining intervention, or death.

                                Further, we found that another 15 percent of beneficiaries experienced
                                less serious occurrences that resulted in harm that was temporary but
                                required intervention, referred to as “temporary harm events” in the
                                case study. 26 For the purposes of this report, we refer to all occurrences
                                that harmed patients (both adverse events and temporary harm events)
                                as “events.” The case study identified a total of 120 events that affected
                                sample beneficiaries.
                                Methods for Identifying Events in the Case Study
                                We used a two-stage review process to identify events in the case study.
                                The first stage consisted of screening for possible events using the
                                following five screening methods: nurse reviews of medical records,
                                interviews of Medicare beneficiaries, two types of billing data analysis,
                                and reviews of internal hospital incident reports. If any screening
                                method identified a possible event, it was labeled a “flag” and the
                                medical record proceeded to the second stage of review. The second
                                stage consisted of physician reviews of those medical records for which
                                at least one of the screening methods indicated that an event had
                                possibly occurred.

                                First-Stage Review: Screening Methods
                                 Method 1: Nurse Reviews. Contracted registered nurses reviewed
                                  medical records for each sampled Medicare beneficiary’s

                                     25 Case study, p. 10.
                                     26 Case study, p. 16.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS         5
I N T R O D U C T I O N


                                  hospitalization. Nurses used a standardized review process developed
                                  by the Institute for Healthcare Improvement (IHI) as part of its
                                  Global Trigger Tool (GTT) protocol, which we adapted for use in the
                                  case study. 27 The nurse review used IHI’s GTT worksheet that listed
                                  54 “triggers” that could be found within a medical record to indicate
                                  the possibility of an event. Examples of triggers include transfusions
                                  or a return to surgery. 28 (For a glossary of clinical terms, see
                                  Appendix C.) When a trigger was found, the nurse reviewer explored
                                  the medical record further to identify possible events and associated
                                  level of harm. (See Appendix D for a copy of the nurse review protocol
                                  and the IHI GTT worksheet.)

                                 Method 2: Analysis of POA Indicators. For the case study, we
                                  obtained administrative billing data directly from hospitals for each of
                                  the 278 sample Medicare beneficiary hospitalizations. 29 We used
                                  POA indicators in the billing data to identify hospitalizations that
                                  may have had events. When the POA indicator showed that a
                                  diagnosis was not present upon admission, we concluded that the
                                  condition developed during the hospital stay and might have been the
                                  result of an event. 30 For example, a diagnosis code for acute renal
                                  failure that was not present upon admission may be a sign that an
                                  event occurred during the hospital stay.

                                 Method 3: Beneficiary Interviews. We conducted telephone
                                  interviews with 220 of the 278 Medicare beneficiaries or their family
                                  members to learn about the medical care experienced during sampled
                                  hospitalizations. 31 The interview protocol was designed to determine

                                  27 For more information about the IHI GTT protocol, see F.A. Griffin and R.K. Resar,   IHI
                                Global Trigger Tool for Measuring Adverse Events, IHI Innovation Series white paper.
                                Cambridge, MA: Institute for Healthcare Improvement Innovation Series 2007.
                                  28 The case study used the 2007 version of the IHI GTT worksheet. A revised version
                                with 53 triggers was published in 2009. Available online at
                                http://www.ihi.org/IHI/Results/WhitePapers/IHIGlobalTriggerToolWhitePaper.htm.
                                Accessed June 15, 2009.
                                  29 Hospital administrative billing data may include up to 30 diagnosis codes with POA
                                indicators. In contrast, Medicare claims data submitted by hospitals to CMS for payment
                                are limited to nine diagnosis codes with POA indicators.
                                  30 The ICD-9-CM system assigns diagnoses and procedure codes associated with
                                hospitalizations and is maintained jointly by the National Center for Health Statistics
                                (NCHS) and CMS. NCHS, The International Classification of Diseases, 9th Rev., Clinical
                                Modification (ICD-9-CM), 6th Edition, was issued for use beginning October 1, 2007.
                                  31 The remaining 58 beneficiaries or family members either could not be reached or
                                declined to be interviewed.



 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                        6
I N T R O D U C T I O N


                                  whether beneficiaries experienced any episodes while in the hospital
                                  that might have involved events. It also included questions about
                                  such topics as medications, procedures, infections, and falls.
                                  Interviews typically lasted 5–7 minutes, but often took longer when
                                  interviewees reported occurrences and the interviewer probed for
                                  details. (See Appendix E for a list of interview questions.)

                                 Method 4: Hospital Incident Reports. We requested that hospitals
                                  provide any internal incident reports, such as submissions to any
                                  hospital incident-reporting systems, adverse drug reaction reports,
                                  complaints, peer reviews, and mortality and morbidity reviews
                                  associated with the 278 sample Medicare beneficiary hospitalizations.
                                  Reports provided by hospitals included issues related to risk
                                  management, hospital infections, surgical management, and others.

                                 Method 5: Analysis of Patient Safety Indicators. We applied AHRQ’s
                                  Patient Safety Indicator (PSI) software program to hospital
                                  administrative billing data for the 278 sample Medicare beneficiary
                                  hospitalizations. AHRQ developed the PSI software to monitor health
                                  care quality using administrative data, such as patient demographics
                                  (e.g., age, gender), and diagnoses and procedure codes. 32 The PSI
                                  software is based upon a series of algorithms that detect 20 provider-
                                  level complications that indicate possible events (e.g., death of a low-
                                  risk patient). 33 (See Appendix F for a list of provider-level PSIs.)

                                Flags. As mentioned, each time a screening method indicated the
                                possibility that an event occurred during the hospitalization, we
                                designated the possible event as a “flag.” For example, if a nurse review
                                indicated that a patient contracted an infection during the sampled
                                hospitalization, we considered that a flag. If the nurse review also
                                indicated that the same patient fell during the hospital stay, the fall
                                was considered another flag for the same patient. Similarly, possible
                                events identified through any of the other screening methods were all
                                considered flags. Thus, each sampled hospitalization could have
                                multiple flags from one or more screening methods. Medical records for


                                  32 AHRQ,   Guide to Patient Safety Indicators, AHRQ Quality Indicators. March 2003.
                                Available online at http://www.qualityindicators.ahrq.gov/archives/psi/psi_guide_v30.pdf.
                                Accessed on June, 4, 2008.
                                  33 AHRQ also has seven “area-level” PSIs designed to indicate possible events on a
                                regional level, which were not used for the case study.



 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                         7
I N T R O D U C T I O N


                                hospitalizations with one or more flags were forwarded to the second
                                stage of review (i.e., physician review of medical records).

                                Second-Stage Review: Physician Review of Medical Records

                                During the second stage of the case study review, 3 contracted
                                physicians reviewed medical records for 183 of the 278 beneficiary
                                hospitalizations—those with at least 1 flag. The physicians reviewed
                                both the full medical records and the information concerning each flag.
                                Physicians completed a structured medical review protocol through
                                which they described each incident that had been flagged in the first-
                                stage review and noted what documentation led to flagging the incident.
                                The physicians then determined whether the incidents flagged in the
                                first-stage review qualified as events for purposes of our study. (See
                                Appendix G for a copy of the Protocol for Physician Reviews of Medical
                                Records.)
                                To ensure consistency among the three physician reviewers, we
                                conducted weekly conference calls to discuss issues and reach consensus
                                about complex cases. Additionally, after physicians initially identified
                                122 events, we gave the associated hospitals an opportunity to provide
                                additional information or documentation. We received 18 hospital
                                submissions; the additional information led the physicians to change
                                their determinations for 2 cases and reduce the number of events to 120.
                                Only events that were identified and confirmed by physicians were
                                included in the case study results.


                                METHODOLOGY
                                Scope
                                This study provides an in-depth examination of the usefulness of the
                                five screening methods for identifying events in the case study. The
                                case study was based on a random sample of 278 Medicare beneficiary
                                hospitalizations selected from all Medicare discharges from acute care
                                hospitals in 2 selected counties during a 1-week period in August 2008.
                                Data Collection and Analysis
                                To evaluate the usefulness of the methods for identifying events,
                                we compared all flags generated by each method to the 120 events
                                identified and/or confirmed through physician reviews. We classified
                                each flag as either “associated with an event” (i.e., it provided
                                information that led the physician to identify an event) or “not
                                associated with an event” (i.e., the possible event did not meet our


 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS    8
I N T R O D U C T I O N


                                criteria to be classified as an event). We then calculated the number
                                and percentage of flags associated and not associated with events. We
                                considered the most useful methods to be those that identified the
                                greatest number of events. We also examined the types of events
                                identified through each method and determined which events had no
                                associated flags (i.e., events identified only through physician reviews of
                                the medical records).

                                Limitations
                                Several aspects of the case study warrant mention because of possible
                                implications and limitations for this report. First, results of the case
                                study can be projected only to the population of Medicare beneficiaries
                                hospitalized in the two selected counties during a 1-week period in
                                August 2008. Second, it is possible that the case study underestimated
                                incidence of adverse events in the sample. Specifically, the two-stage
                                methodology meant that physicians conducted medical record reviews
                                for only 183 of the 278 Medicare beneficiary hospitalizations. Therefore,
                                it is unknown whether the 95 hospitalizations with no flags had any
                                events. Third, the case study included beneficiary interviews for only
                                220 of the 278 sampled hospitalizations. It is unknown whether
                                interviews with the other 58 beneficiaries would have identified
                                additional flags or events. Fourth, it is possible that hospitals did not
                                provide all incident reports associated with the Medicare beneficiaries’
                                hospitalizations. Finally, because data collection occurred soon after the
                                sample beneficiary hospitalizations, staff from a few hospitals indicated
                                that the hospital billing data had not undergone complete data cleaning
                                and validation. We do not know whether this additional processing by
                                hospitals would have affected any screening results.
                                Standards
                                This study was conducted in accordance with the Quality Standards for
                                Inspections approved by the Council of the Inspectors General on
                                Integrity and Efficiency.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS     9
            F I N D I N G S

      The five screening methods were useful in                          The 5 screening methods used in
identifying adverse events; however, most flags                          the case study generated a total of
                were not associated with events                          662 flags (i.e., possible events).
                                                                         (See Figure 1.) Physician reviews
                                   determined that 256 of the 662 flags (39 percent) were associated with
                                   events and 406 of the 662 flags (61 percent) were not associated with
                                   events. Because more than 1 flag identified many events, the 256 flags
                                   revealed a total of 114 events. Physicians identified an additional
                                   6 (of the 120) events in their medical record reviews, finding events
                                   within cases that were flagged for other reasons. (See Appendix H for
                                   an expanded graphic of the results of the screening methods.)


                                   Figure 1: Flags and Events Identified Through Case Study
                                   Screening Methods

                                                                                     All Flags Identified
                                                                                       in Case Study
                                                                                          (n = 662)




                                                                                                                     Flags Not Associated
                                                                                     Flags Associated
                                                                                                                         With Events
                                                                                    With Events (n = 256)
                                                                                                                           (n = 406)



                                          Events Identified                     Unique Events Identified
                                       Only Through Physician                     Through Screening
                                              Reviews                                  Methods
                                               (n = 6)                                 (n = 114)



                                                                                    Events Identified in
                                                                                       Case Study
                                                                                        (n = 120)


                                   Source: OIG analysis of 278 Medicare beneficiaries’ hospitalizations in 2 selected counties, 2008.




    O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                  10
F I     N D I               N G   S


                                  Nurse reviews and POA analysis identified the greatest number of events
                                  Nurse reviews identified 93 of the 120 events in the case study and
                                  POA analysis identified 61 events. (See Table 1.) The third most
                                  useful screening method, beneficiary interviews, identified 22 events,
                                  and the remaining 2 screening methods identified 8 events each.

                                  Table 1: Number and Percentage of Events Identified
                                  Through Each Screening Method

                                                                                                                       Percentage of
                                      Method                                         Number of Events*
                                                                                                                         120 Events

                                      Nurse Reviews                                                     93                          78%

                                      POA Analysis                                                      61                          51%

                                      Beneficiary Interviews                                            22                          18%

                                      Hospital Incident Reports                                         8                           7%

                                      PSI Analysis                                                       8                          7%
                                  Source: OIG analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.
                                  *Column does not sum to 120 because many events were identified through more than 1 method.


                                  The usefulness of nurse reviews and POA analysis appears attributable
                                  to both the breadth and precision of each of these methods. Both were
                                  broad, in that nurse reviews examined all documents in the medical
                                  records and POA analysis considered up to 30 diagnosis codes
                                  representing patient conditions. This allowed for a review of a range of
                                  possible events unlike, for example, a hospital incident report related
                                  specifically to a medication error. Both methods were also precise. The
                                  nurse review protocol provided a clinical description of the health care
                                  condition; the ICD-9-CM codes used for POA analysis specified each
                                  patient diagnosis. This specific clinical information later enabled the
                                  physicians to more easily pinpoint related information in the medical
                                  records.

                                  The usefulness of nurse reviews and POA analysis is further
                                  demonstrated by their performance in identifying events not flagged by
                                  any other screening methods. Of the 120 events, 55 (46 percent) were
                                  identified by only 1 screening method. Nurse reviews identified
                                  35 events not flagged by any other screening method, (29 percent of the
                                  120 events) and POA analysis alone flagged 14 events (12 percent).




 O E I - 0 6 - 0 8 - 0 0 2 21     ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                     11
          F I         N D I           N G    S


                                       Although the five screening methods were useful in identifying events,
                                       most flags were not associated with events
                                       As reported on page 11, 406 of the 662 flags generated by the screening
                                       methods were not associated with any of the 120 events identified in the
                                       case study. The POA analysis generated the most flags that were not
                                       associated with events (183 flags) and PSI analysis generated the fewest
                                       (4 flags). (See Figure 2.)


Figure 2: Number of Flags Not Associated With Events and Associated With Events by
Screening Method
200
             183




150
                                                                                                      Flags Not Associated With Events
                                            123
                         113
                                                  104                                                 Flags Associated With Events
100




                                                                        50
                                                                                                      46
 50

                                                                                  21
                                                                                                             9                       9
                                                                                                                             4
  0
                 POA                          Nurse                    Beneficiary                     Hospital                PSI
                Analysis                    Reviews                    Interviews                      Incident              Analysis
               (n = 296)                    (n = 227)                   (n = 71)                       Reports               (n = 13)
                                                                                                       (n = 55)

 Source: OIG analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.
 Note: Some flags were associated with more than one event, and some events were identified through more than one flag.




                                       We noted several possible explanations for the large number of flags
                                       that were not associated with events:

                                        First, physician reviews determined that many flags represented
                                         conditions or occurrences that did not cause harm to the patients. For
                                         example, six hospital incident reports described beneficiary falls that,
                                         according to the medical record, did not result in injury or require
                                         additional treatment.


       O E I - 0 6 - 0 8 - 0 0 2 21    ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                               12
F I     N D I               N G   S


                                   Second, physician reviews determined that some flags represented
                                    occurrences that were part of the natural course of the patients’
                                    disease or medical condition. In one such case, a flag from the nurse
                                    review indicated that a beneficiary experienced postoperative atrial
                                    fibrillation. However, the physician review determined that this was
                                    not an event because the beneficiary’s underlying medical condition
                                    likely led to the atrial fibrillation, rather than care provided during
                                    the hospitalization.

                                   Third, in some cases, physician reviews did not find supporting
                                    documentation in the medical records to determine that flags were
                                    associated with events. For example, a beneficiary interview included
                                    a report of pressure ulcers, yet the physician reviewer did not find
                                    pressure ulcers documented in the medical record and therefore could
                                    not determine that an event occurred.

                                   Finally, to ensure that physicians reviewed medical records with any
                                    chance of an event, we defaulted to including all flags, even when the
                                    screening method suggested only a slight possibility of harm. For
                                    example, physicians reviewed all cases for which the hospitals
                                    provided associated incident reports, even if the reports did not
                                    initially appear to be related to patient harm.

                                  Although some events were flagged by one screening method, other
                                  events were flagged by multiple methods, especially in cases in which
                                  the patients had several complicating health care conditions. For
                                  example, one of the most complex hospitalizations involved a patient
                                  who died during the hospitalization. Even though the family declined to
                                  be interviewed, the 4 remaining screening methods generated a total of
                                  29 flags. Physician reviews determined that the patient experienced
                                  4 events. One of the four events was a “cascade” with 19 associated
                                  flags. 34 This cascade included several events, such as deep vein
                                  thrombosis, respiratory failure, renal failure, and sepsis. Two other
                                  events were hospital-acquired infections, which were both flagged by
                                  nurse reviews and POA analysis. The fourth event involved kidney
                                  damage, which was flagged by nurse review and POA analysis. Overall,


                                     34 IHI defines cascade event as one in which an initial event causes a series of additional,
                                  related events for the same patient, and advocates collapsing these series into single events
                                  in determining event counts. F.A. Griffin and R.K. Resar, IHI Global Trigger Tool for
                                  Measuring Adverse Events, IHI Innovation Series white paper. Cambridge, MA: Institute
                                  for Healthcare Improvement Innovation Series 2007, p. 11.



 O E I - 0 6 - 0 8 - 0 0 2 21     ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                         13
   F I      N D I               N G   S


                                      physician reviews determined that 26 of the 29 flags were associated
                                      with events, and the remaining 3 flags were not associated with events.
                                      For more details on each screening method, see page 21.



  Shortcomings in two screening methods have                                For the Medicare program and
implications for Medicare payments and Federal                              other entities to learn of events
 initiatives to identify, track, and monitor events                         that harm patients, they must
                                                                            receive accurate and complete
                                      information from hospitals. Two critical sources of such information are
                                      hospital billing data (diagnosis codes and associated POA indicators)
                                      and hospital incident reports. Our analysis of data from these sources
                                      revealed vulnerabilities regarding both accuracy and completeness,
                                      which could result in Medicare overpayments and inhibit initiatives to
                                      improve patient safety.
                                      POA analysis revealed problems that could inhibit CMS’s ability to identify
                                      hospital-acquired conditions and appropriately deny Medicare payments
                                      In the case study, we found that only 4 of the 11 events involving
                                      Medicare hospital-acquired conditions could be identified through the
                                      POA indicators contained in billing data. 35 As previously stated,
                                      Federal regulations require that hospitals submit with each diagnosis
                                      code on a Medicare claim a POA indicator designating whether the
                                      condition was present upon admission. The ICD-9-CM codes and POA
                                      indicators submitted by hospitals enable Medicare’s automated payment
                                      processing software to identify claims with hospital-acquired conditions,
                                      enabling denial of payment for associated care and also providing
                                      valuable information for use in monitoring quality of care in hospitals.

                                      Among the seven hospital-acquired conditions found in the case study
                                      that POA analysis did not flag, five had no related ICD-9-CM code in
                                      the hospital billing data. 36 Thus, Medicare automated payment
                                      processing software could not determine that a hospital-acquired
                                      condition had occurred. Although the hospital would not receive
                                      additional payment for care associated with the conditions (the desired


                                          35 Medicare’s payment policy for hospital-acquired conditions was not yet in effect at the
                                      time of the case study, and therefore these findings do not indicate that Medicare made any
                                      improper or incorrect reimbursements for claims associated with these hospital-acquired
                                      conditions.
                                        36 It was beyond the scope of the case study to determine the underlying causes for these
                                      absent or inaccurate codes.



     O E I - 0 6 - 0 8 - 0 0 2 21     ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                         14
F I     N D I               N G   S


                                  outcome of the Medicare payment policy), the absence of these codes
                                  inhibits the usefulness of billing data for gauging how often such events
                                  occur and for monitoring quality of care in hospitals.

                                  In the two remaining cases, hospital billing data contained diagnosis
                                  codes related to the hospital-acquired condition, but the codes were not
                                  specific enough to invoke the Medicare payment policy. In each of these
                                  two cases, physician reviews determined that the beneficiary
                                  experienced a “catheter-associated urinary tract infection,” yet the
                                  billing data included a more general diagnosis code for “urinary tract
                                  infections, not otherwise specified.” Although these less descriptive
                                  diagnosis codes led physicians to identify the events in these cases, they
                                  would not have allowed Medicare’s automated payment-processing
                                  software to identify the hospital-acquired conditions and, therefore,
                                  could have resulted in Medicare overpayments to the hospitals if the
                                  payment policy had been in effect at the time of the case study. Such
                                  discrepancies would also affect use of Medicare claims and POA
                                  indicator data to monitor events and quality of care in hospitals.
                                  The lack of hospital incident reports could prevent hospitals from tracking
                                  events as required or reporting events to outside entities
                                  Identifying events within hospitals and capturing event information in
                                  hospital incident reports are critical first steps toward addressing
                                  problems that lead to patient harm. We requested that hospitals
                                  provide any internal incident reports involved with the hospitalization,
                                  including submissions to the hospital incidence-reporting systems,
                                  adverse drug reaction reports, complaints, peer reviews, and morbidity
                                  and mortality reviews, for the 278 sample Medicare beneficiary
                                  hospitalizations. However, hospitals did not provide, and apparently
                                  did not have, any reports for 112 of the 120 events (93 percent) found in
                                  the case study. Further, hospitals had no incident reports for two of the
                                  three events that resulted in death to the patients or two of the four
                                  events that resulted in serious disability.

                                  The implications of hospitals’ failure to identify and capture event
                                  information can be significant. First, although we did not assess
                                  hospital compliance with Federal requirements to “track medical errors
                                  and adverse patient events,” it raises concerns that only four of the
                                  seven most serious events had no associated hospital incident reports.
                                  Further, the lack of incident reports for 93 percent of events suggests
                                  that hospital incident-reporting systems may be an unreliable source of
                                  information for PSOs, States operating adverse event reporting


 O E I - 0 6 - 0 8 - 0 0 2 21     ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   15
F I      N D I               N G     S



                                         systems, and other entities. These entities often seek to learn from the
                                         combined experiences of many hospitals to generate lessons to improve
                                         patient safety. Unless events are reported within the hospital first, the
                                         event information is unlikely to be available to outside entities for
                                         learning.




      O E I - 0 6 - 0 8 - 0 0 2 21       ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   16
F I     N D I
         R E CN O
                 G S
                    M M E N D A T I O N S




                                Identifying events that harm hospital patients is a topic of interest to
                                Congress, HHS, and the health care community and is important to
                                reduce their occurrence. This report found that, combined, the selected
                                screening methods used for the case study were useful in identifying
                                events. However, we also identified weaknesses in their use; physicians
                                determined that most flags generated by the five screening methods
                                were not associated with events. Further, we found that shortcomings
                                revealed within two screening methods have implications for Medicare
                                payments and Federal initiatives to identify, track, and monitor events.

                                Overall, the case study findings suggest that an effective way to identify
                                events that result in harm to patients is through review of medical
                                records by nurses and/or physicians, methods that are both costly and
                                time consuming. Other less costly and time-consuming methods, such
                                as analyzing billing data or examining hospital incident reports, would
                                identify far fewer events. Nonetheless, there is no current mandate for
                                HHS to conduct medical reviews to identify events.

                                Therefore, we recommend that:

                                CMS and AHRQ should explore opportunities to identify events when
                                conducting medical record reviews for other purposes
                                CMS and AHRQ could reduce the cost of efforts to identify adverse
                                events by adding such efforts to ongoing medical record reviews.
                                Examples of such efforts include, but are not limited to: CMS’s
                                Medicare Comprehensive Error Rate Testing (CERT) and the work of
                                Quality Improvement Organizations (QIO); AHRQ grant awards for
                                patient safety research; and State survey agency work in certifying
                                hospital compliance with the Medicare conditions of participation.

                                CMS should ensure that hospitals code claims accurately and completely to
                                allow for identification of hospital-acquired conditions affected by
                                Medicare’s payment policy
                                CMS relies on hospitals to code diagnoses and POA indicators to identify
                                Medicare hospital-acquired conditions subject to the payment policy.
                                However, we found that ICD-9-CM codes were inaccurate or absent for
                                7 of the 11 events that involved Medicare hospital-acquired conditions
                                found in the case study. Because the payment component of the Medicare
                                hospital-acquired conditions policy was not in effect at the time of the case
                                study, this problem did not result in improper payments to any providers.
                                However, given that the payment policy is now in effect, similar problems

 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   17
R E C O M M E N D A T I O N S


                                could result in improper payments. Further, incorrect or absence of
                                diagnosis codes would prevent CMS from determining that the events
                                occurred, which would inhibit its ability to measure rates of hospital-
                                acquired conditions and limit public reporting of the measured rates.
                                CMS should determine whether additional guidance or other action is
                                needed to ensure that hospitals code diagnoses and POA indicators
                                accurately and completely. We are conducting further research examining
                                the accuracy of claims related to hospital-acquired conditions for a
                                nationally representative sample of Medicare beneficiaries’
                                hospitalizations.
                                CMS should provide interpretive guidelines for State survey agencies to
                                assess hospital compliance with requirements to track and monitor adverse
                                events
                                Although hospitals must “track medical errors and adverse patient
                                events” under Medicare’s conditions of participation, few events found
                                in the case study had associated hospital incident reports. The State
                                Operations Manual, through which CMS provides guidance to State
                                survey agencies that assess hospital compliance with Federal
                                regulations, contains no interpretive guidelines regarding these
                                requirements. 37 Therefore, when State agency staff perform surveys of
                                hospitals (e.g., standard compliance surveys and surveys based on
                                complaints), it is unclear how surveyors are to assess hospital
                                operations for tracking medical errors and other events that result in
                                harm to patients. CMS should provide guidance to surveyors for
                                assessing hospitals’ compliance with these requirements. Such
                                guidance could include what types of medical errors and adverse patient
                                events hospitals should track and monitor, as well as what information
                                should be captured in hospital incident reports.
                                AHRQ should inform PSOs that internal hospital incident reporting may be
                                insufficient to provide needed information about events to PSOs
                                PSOs were established to aggregate and analyze events that pose risks
                                to patient safety. AHRQ indicated that it expects PSOs will rely
                                primarily upon existing hospital infrastructures for identifying,
                                tracking, and reporting information about events to PSOs. However, we
                                found that hospital incident reports existed for only 8 of the 120 events


                                  37 CMS,  State Operations Manual, 2009, Appendix A, A-0267; A-0286 through A-0288.
                                Available online at http://www.cms.hhs.gov/manuals/downloads/som107ap_a_hospitals.pdf.
                                Accessed on September 1, 2009.



 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                 18
R E C O M M E N D A T I O N S



                                  identified in the case study. In providing technical assistance to
                                  support PSOs, AHRQ should convey the importance of strong hospital
                                  internal incident-reporting procedures that capture relevant
                                  information about events that cause harm to patients.


                                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                  RESPONSE
                                  We received comments on our draft of this report from AHRQ and CMS.

                                  AHRQ concurred with the report as written. CMS stated that it
                                  appreciates the original contribution that the report makes in
                                  advancing the patient safety agenda in hospitals and agrees with the
                                  recommendations made to CMS. We made no changes to the report
                                  based on agency comments.

                                  In its comments, CMS outlined several opportunities to identify events
                                  when conducting medical record reviews for other purposes. First, CMS
                                  noted that it expects State Survey Agencies to investigate patient
                                  adverse events while conducting a survey of a hospital’s compliance
                                  with the Medicare conditions of participation. Second, CMS stated that
                                  it is increasingly investigating the extent to which adverse events are
                                  tracked and analyzed by hospital internal quality assurance and
                                  performance systems. Third, CMS noted that the QIO program
                                  addresses many quality-of-care concerns through the beneficiary
                                  complaint and medical review processes or through referral by other
                                  entities. Regarding QIOs, CMS indicated that it has proposed policy
                                  revisions to the QIO beneficiary complaint and quality-of-care review
                                  process to include adverse events as indicators of quality and will
                                  explore a possible quality-referral mechanism between the CERT
                                  contractor and the QIO program. Lastly, CMS stated that it is
                                  collaborating with AHRQ on the Medicare Patient Safety Monitoring
                                  System to estimate prevalence of certain conditions and adverse events.

                                  CMS indicated that to ensure that hospitals accurately code claims to
                                  enable identification of hospital-acquired conditions, it has established a
                                  process for providing coding advice to hospitals. Further, CMS
                                  indicated that it will study the accuracy of coding hospital-acquired
                                  conditions and reporting of POA indictors to use in developing
                                  refinements in coding instructions or to focus review on areas of
                                  inaccurate reporting.




   O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   19
R E C O M M E N D A T I O N S


                                CMS indicated that it will ensure that the State Operations Manual
                                includes full guidance for surveyors to assess hospital QAPI systems
                                and strengthen CMS surveyor-training programs to enhance surveyor
                                abilities to evaluate compliance with the QAPI requirements. 
                                For the full text of AHRQ and CMS comments, see Appendix I.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   20
        S C R E E N I N G                                       M E T H O D S

                               The following section provides specific results for each of the screening
                               methods used for identifying events in the case study, as well as factors
                               that appeared to affect their usefulness.



                               Method 1: Nurse Reviews of Medical Records
                               Nurse reviews identified the most events among the screening methods and
                               also generated many flags that were not associated with events
                               Nurse reviews generated 227 flags across 127 Medicare beneficiaries:
                               1 flag each for 70 beneficiaries and more than 1 flag for the remaining
                               57 beneficiaries. In an unusually complex case, the nurse reviewer
                               identified 11 flags. Because the nurse review protocol required a broad-
                               based examination of the medical record, nurses identified flags
                               associated with a variety of conditions and occurrences. The most
                               prominent types of flags related to surgery and other procedures,
                               medication, and infections. (See Table 2.)
                               Table 2: Number of Flags and Events Identified by Nurse
                               Reviews of Medical Records
                                                                                                          Number of Flags
                                  Type of Conditions or Occurrences
                                                                                                  Identified by       Associated
                                                                                                       Method         With Events
                                  Surgery and other procedures                                              58                   34

                                  Medication                                                                51                   29

                                  Infections                                                                45                   20

                                  Skin care                                                                 19                   11

                                  Patient care                                                               9                    5

                                  Glycemic control                                                           8                    3

                                  Patient fall                                                               7                    1

                                  Readmission                                                                7                    0

                                  Intravenous fluid                                                          4                    2

                                  Use of restraints                                                          4                    0

                                  Other                                                                     15                    0

                                     Total                                                                 227                104*
                               Source: OIG analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.
                               *Column will not sum to 104 because some flags were associated with more than 1 event and some events
                               were identified through more than 1 flag.




O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS    IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                    21
S     C      R      E E            N I   N G          M        E T     H O     D S


                                         Physician reviews determined that 104 of the 227 flags (46 percent)
                                         identified by nurse reviews were associated with events. Because more
                                         than 1 flag was associated with some of the events, this method
                                         identified a total of 93 events (78 percent of the 120 events in the case
                                         study). Physician reviews determined that 123 of the 227 flags
                                         (54 percent) generated by nurse reviews were not associated with
                                         events. These flags were typically not associated with events because
                                         the condition or occurrence flagged did not involve harm to the patient
                                         or was related to the patient’s underlying disease or medical condition
                                         or because the medical record did not contain sufficient documentation
                                         to determine that an event occurred.



                                         Method 2: Analysis of Present on Admission Indicators
                                         POA analysis generated the most flags among the five methods and
                                         identified about half of the events
                                         To identify diagnoses that were not coded as present on admission and
                                         therefore presumed to be hospital acquired, POA analysis of hospital
                                         billing data considered up to 30 ICD-9-CM codes and POA indicators for
                                         each case. This analysis generated 296 flags across 98 Medicare
                                         beneficiaries: 1 flag for 40 beneficiaries and more than 1 flag for the
                                         remaining 58 beneficiaries. The method generated 10 or more flags for
                                         each of 4 beneficiaries who had very complex hospitalizations.

                                         The 296 flags included 155 different ICD-9-CM codes across the
                                         98 beneficiaries. Of these 155 codes, 95 were flagged once (i.e., for only
                                         1 beneficiary). The most frequently represented code, anemia because
                                         of blood loss, was flagged for 16 different beneficiaries. (See Table 3.)

                                         Physician reviews determined that 113 of the 296 flags (38 percent)
                                         identified through POA analysis were associated with events. Because
                                         more than 1 flag was associated with some of the events, the method
                                         identified a total of 61 events (51 percent of the 120 events in the case
                                         study). 38 However, POA analysis generated the largest number flags

                                           38 POA analysis would have identified 34 percent fewer events (21 of 61 events) if we
                                         had used Medicare claims data rather than billing data obtained directly from hospitals.
                                         For these 21 events, either there were no Medicare claims for the hospitalizations or the
                                         relevant diagnosis codes were not in the Medicare claims. (Medicare claims data include
                                         only the first nine diagnosis codes and POA indicators for each hospitalization.) This
                                         suggests that researchers who cannot obtain billing data directly from hospitals may
                                         identify a smaller percentage of adverse events than suggested by the case study results.



    O E I - 0 6 - 0 8 - 0 0 2 21         ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                         22
S     C      R      E E            N I    N G           M      E T     H O      D S


                                         that were not associated with events (183) among the screening
                                         methods (62 percent of the 296 POA analysis flags). For POA flags that
                                         were not associated with events, physician reviews determined that
                                         they typically did not involve harm to the patient or were related to the
                                         patients’ diseases or medical conditions or that the medical records did
                                         not contain documentation to determine that events occurred. For
                                         example, physician reviews often did not find accompanying patient
                                         signs or symptoms associated with laboratory tests that caused actual
                                         harm or required an intervention or prolonging of the hospital stay.
                                         Physician reviewers reported that the three most frequently occurring
                                         POA flags—anemia because of acute blood loss, potassium deficiency,
                                         and acute renal failure—each represented temporary laboratory
                                         findings common during care for complex patients.

                                         Table 3: Seven Most Frequently Occurring Flags With Diagnoses
                                         Not Coded as Present on Admission
                                                                                                                             Number of Flags
                                             ICD-9-CM
                                                                Description
                                             Code                                                                  Identified by           Associated
                                                                                                                        Method             With Events

                                             285.1              Anemia because of acute blood loss                              16                  2

                                             276.8              Potassium (K) deficiency                                        12                  0

                                             584.9              Acute renal failure                                             10                  4

                                                                Other enterovirus diseases of central
                                             48.6                                                                                6                  4
                                                                nervous system

                                             511.9              Unspecified pleural effusion                                     6                  1

                                             707.03             Decubitus ulcer                                                  5                  5

                                             997.1              Cardiac complications                                            5                  1
                                         Source: OIG analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.




                                         Method 3: Beneficiary Interviews
                                         Beneficiary interview was the only method to rely on information from
                                         outside the hospitals and identified 21 percent of events
                                         Beneficiary interviews identified 70 flags across 42 Medicare
                                         beneficiaries: 1 flag each for 25 beneficiaries and more than 1 flag for
                                         each of the remaining 17 beneficiaries. Two beneficiaries each reported
                                         five different flags, the most reported during interviews. Flags from
                                         interviews covered a smaller range of conditions and occurrences than
                                         nurse reviews or POA analysis. (See Table 4.)

    O E I - 0 6 - 0 8 - 0 0 2 21         ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                   23
S     C      R      E E            N I    N G           M        E T     H O     D S


                                         Table 4: Number of Types of Flags and Events Identified
                                         Through Beneficiary Interviews

                                                                                                                        Number of Flags


                                                                                                                 Identified by     Associated
                                            Type of Condition or Care
                                                                                                                      Method       With Events

                                            Medication                                                                     18               8

                                            Skin care                                                                      14               3

                                            Hospital-acquired infections                                                   13               3

                                            Surgery and other procedures                                                   12               6

                                            Patient falls                                                                   4               1

                                            Intravenous volume overload                                                     1               1

                                            Other general care complaints                                                   8               0

                                               Total                                                                       70              21*
                                         Source: OIG analysis of 220 Medicare beneficiaries’ interviews.
                                         *Column does not sum to 21 because 1 flag was associated with 2 events.


                                         During interviews, beneficiaries and their representatives revealed both
                                         specific and general concerns. Among the 70 flags, 62 involved specific
                                         health care circumstances (e.g., medication problems, infections). For
                                         the other eight flags, interviews gleaned general complaints about the
                                         quality or outcome of care. For example, one beneficiary indicated that
                                         his mobility changed shortly after the hospital stay. To ensure that we
                                         did not miss events, we considered each of these 8 as flags and
                                         forwarded them to physicians for medical record reviews, along with the
                                         62 specific flags.
                                         Several reasons may explain why beneficiary interviews identified
                                         relatively few flags as compared to some of the other methods.
                                         Although we conducted interviews within about 1 month of their
                                         hospitalizations, a number of beneficiaries had difficulty recalling their
                                         experiences, although some remembered more as the interview
                                         proceeded. For example, during the initial series of general questions,
                                         several respondents indicated that they had no problems, yet later
                                         identified problems when asked about specific topic areas such as
                                         medication or falls. Respondents who had more than one recent
                                         hospital stay often had difficulty distinguishing during which stay
                                         problems occurred. Although assured that information would be kept
                                         confidential, a few beneficiaries expressed concern that hospitals would
                                         disapprove of their participating in the interviews. Finally, this method


    O E I - 0 6 - 0 8 - 0 0 2 21         ADVERSE EVENTS     IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                   24
S     C      R      E E            N I   N G          M        E T     H O     D S


                                         generated no flags for the 58 sample beneficiaries that we could not
                                         contact or declined to be interviewed.

                                         Despite these barriers, physician reviews determined that 21 of the
                                         70 flags (30 percent) generated from beneficiary interviews were
                                         associated with events. One event that was flagged through an
                                         interview but missed by the other screening methods demonstrates the
                                         usefulness of beneficiary interviews in learning about events. In this
                                         case, the beneficiary experienced an allergic reaction determined by the
                                         physicians to be an event. The beneficiary indicated in the interview
                                         that hospital staff had been informed in advance of the allergy.



                                         Method 4: Hospital Incident Reports
                                         Although few hospital incident reports were associated with events, these
                                         were useful in understanding what transpired
                                         Counting each incident report as a flag, this method identified 55 flags
                                         across 40 Medicare beneficiaries. Hospitals submitted a single incident
                                         report each for 29 of these beneficiaries and multiple reports for each of
                                         the other 11 beneficiaries. In a few of the cases with multiple reports,
                                         the reports were related to the same condition or occurrence, with initial
                                         reports and then subsequent reports detailing further analysis and
                                         outcomes. In the other cases, the multiple reports indicate that the
                                         beneficiaries experienced multiple unrelated occurrences.

                                         We grouped the 55 incident reports into 3 distinct categories: patient
                                         incidents (29 reports), systems incidents (21 reports), and nonmedical
                                         incidents (5 reports). (See Table 5.) Each patient incident report
                                         involved a medical condition or occurrence specific to one of the sample
                                         Medicare beneficiaries. The most common of these reports involved
                                         adverse medication reactions. The systems incident reports also related
                                         to particular patients, but the reports described incidents related to
                                         hospital systems rather than the patients’ conditions. The most
                                         common hospital systems incident report addressed medication
                                         administration errors that, despite involving errors, did not cause harm
                                         to the patients. Finally, nonmedical incident reports were unrelated to
                                         the health care provided to the patients, such as two reports about
                                         stolen property.




    O E I - 0 6 - 0 8 - 0 0 2 21         ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS    25
S     C      R      E E            N I    N G           M      E T     H O      D S



                                         Table 5: Hospital Incident Reports by Category

                                                                                                                        Number of Flags

                                            Category of Hospital Incident Reports
                                                                                                                   Identified       Associated
                                                                                                                  by Method         With Events

                                            PATIENT INCIDENTS                                                               29                       9

                                              Adverse medication reactions                                                  11                       3

                                              Skin care-related incidents                                                    7                       3

                                              Falls                                                                          6                       0

                                              Other patient incidents                                                        5                       3

                                            SYSTEMS INCIDENTS                                                               21                       0

                                              Medication administration errors                                               7                       0

                                              Hospital policy-driven reports*                                                6                       0

                                              Other systems incidents                                                        5                       0

                                              Staff care incidents                                                           3                       0

                                            NONMEDICAL INCIDENTS                                                             5                       0

                                                Total                                                                       55                       9
                                         Source: OIG analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.
                                         *These reports were generated because of hospital policies that called for such reports whenever specific
                                         circumstances occurred, such as an unplanned readmission of a patient.


                                         Physician reviews determined that 9 of the 55 flags (16 percent) were
                                         associated with events. (The method identified eight unique events
                                         because one event had two associated incident reports.) The events
                                         involved three adverse medication reactions, two skin care events, two
                                         surgical complications, and one blood-clotting event. The eight events
                                         involved only reports that we categorized as patient incident reports,
                                         indicating that reports related to hospital systems and nonmedical
                                         incidents were not useful for identifying events.

                                         The detail included in the hospital incident reports was useful in
                                         understanding what transpired. These reports typically described the
                                         nature and types of incidents and their effect on patients. Some reports
                                         also indicated whether the events were reportable to other entities, such
                                         as States operating adverse event reporting systems. More serious
                                         events tended to require reporting to other entities and sometimes
                                         resulted in highly detailed and/or multiple reports. For example, for
                                         one beneficiary, who experienced multiple complications following
                                         surgery, the hospital generated three separate incident reports: a

    O E I - 0 6 - 0 8 - 0 0 2 21         ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                             26
S     C      R      E E            N I    N G         M        E T     H O     D S


                                         report describing a hospital-acquired infection that led to sepsis, a
                                         report describing the patient’s return to surgery for a bowel obstruction,
                                         and a more general report about hypotension and confusion.

                                         The low number of events identified through hospital incident reports
                                         (8), and the relatively high number of incident reports not related to
                                         events (46), suggest a disconnect between the hospitals’ purpose for
                                         internal incident-reporting systems and the goal of identifying events
                                         that result in patient harm. Reports often referred to incidents with
                                         hospital systems and nonmedical issues that could be useful for hospital
                                         administration purposes, but the incidents did not involve harm to
                                         patients.



                                         Method 5: Analysis of Patient Safety Indicators
                                         PSI analysis identified the fewest flags among the screening methods and
                                         did not identify some events related to conditions covered by PSI software
                                         PSI analysis identified 13 flags across 11 Medicare beneficiaries, the
                                         lowest number of flags among the screening methods used in the case
                                         study. 39 (See Table 6.) This low number of flags is, in part, because
                                         PSI software is limited to only 20 health care conditions. 40 The most
                                         frequently occurring condition with a PSI was pressure ulcer (five flags).

                                         Physician reviews determined that 9 of the 13 flags (69 percent)
                                         generated by PSI analysis were associated with events. (The method
                                         identified eight events because one of the events had two associated
                                         PSIs.) Although this method was one of the methods that identified the
                                         fewest events among the screening methods, it also had the fewest flags
                                         that were not associated with events (four).




                                           39 The PSI analysis identified 1 flag for 10 of these 11 beneficiaries and 3 flags for the
                                         other beneficiary.
                                            40 Additionally, 4 of these 20 PSIs involved obstetrics and were therefore unlikely to
                                         affect the Medicare beneficiary population included in the case study.



    O E I - 0 6 - 0 8 - 0 0 2 21         ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                            27
S   C    R      E E          N I   N G        M     E T       H O      D S



                                   Table 6: Number of Flags and Events Identified Through
                                   PSI Analysis

                                                                                                                  Number of Flags
                                      Patient Safety Indicator
                                                                                                         Identified by          Associated
                                                                                                              Method            With Events

                                      Pressure ulcer                                                                   5                 5

                                      Postoperative pulmonary embolism or deep vein
                                                                                                                       3                 2
                                      thrombosis

                                      Accidental puncture or laceration                                                2                 1

                                      Selected infections because of medical care                                      1                 1

                                      Iatrogenic pneumothorax                                                          1                 0

                                      Complications of anesthesia                                                      1                 0

                                          Total                                                                       13                 9
                                   Source: OIG analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.


                                   Additionally, PSI analysis did not identify as flags some events
                                   involving health care conditions targeted by the PSI software typically
                                   because related diagnosis codes were not included in the billing data
                                   provided to OIG. For example, although PSI software is designed to
                                   identify pressure ulcers, our PSI analysis identified only 5 of the
                                   13 pressure ulcers found in the case study. Regarding the other eight
                                   hospitalizations with pressure ulcers, billing data for seven had no
                                   ICD-9-CM diagnosis codes indicating that the Medicare beneficiaries
                                   had pressure ulcers. The remaining case had an ICD-9-CM diagnosis
                                   code for the pressure ulcer, but the PSI software intentionally invoked
                                   an exemption because the hospitalization had another complication,
                                   specifically anoxic brain damage. In the absence of the brain damage,
                                   PSI analysis would likely have flagged the pressure ulcer.




    O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                   28
        A P P E N D I X                                   ~       A

                               Tax Relief and Health Care Act of 2006
                               P.L. 109-432

                               DIVISION B – MEDICARE AND OTHER HEALTH PROVISIONS
                               TITLE II—MEDICARE BENEFICIARY PROTECTIONS
                               SEC 203 OIG STUDY OF NEVER EVENTS

                               (a) Study.—

                               (1) In general.—The Inspector General in the Department of Health and
                               Human Services shall conduct a study on—

                               (A) incidences of never events for Medicare beneficiaries, including
                               types of such events and payments by any party for such events;

                               (B) the extent to which the Medicare program paid, denied payment, or
                               recouped payment for services furnished in connection with such events
                               and the extent to which beneficiaries paid for such services; and

                               (C) the administrative processes of the Centers for Medicare & Medicaid
                               Services to detect such events and to deny or recoup payments for
                               services furnished in connection with such an event.

                               (2) Conduct of study.—In conducting the study under paragraph (1), the
                               Inspector General—

                               (A) shall audit a representative sample of claims and medical records of
                               Medicare beneficiaries to identify never events and any payment (or
                               recouping of payment) for services furnished in connection with such
                               events;

                               (B) may request access to such claims and records from any Medicare
                               contractor; and

                               (C) shall not release individually identifiable information or facility-
                               specific information.

                               (b) Report.—Not later than 2 years after the date of the enactment of
                               this Act, the Inspector General shall submit a report to Congress on the
                               study conducted under this section. Such report shall include
                               recommendations for such legislation and administrative action, such as
                               a noncoverage policy or denial of payments, as the Inspector General
                               determines appropriate, including—




O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS        29
A P P           E N D I X               ~         A


                                (1) recommendations on processes to identify never events and to deny
                                or recoup payments for services furnished in connection with such
                                events; and

                                (2) a recommendation on a potential process (or processes) for public
                                disclosure of never events which—

                                (A) will ensure protection of patient privacy; and

                                (B) will permit the use of the disclosed information for a root cause
                                analysis to inform the public and the medical community about safety
                                issues involved.

                                (c) Funding.— Out of any funds in the Treasury not otherwise
                                appropriated, there are appropriated to the Inspector General of the
                                Department of Health and Human Services $3,000,000 to carry out this
                                section, to be available until January 1, 2010.

                                (d) Never Events Defined.— For purposes of this section, the term
                                “never event” means an event that is listed and endorsed as a serious
                                reportable event by the National Quality Forum as of
                                November 16, 2006.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS     30
        A P P E N D I X                                        ~      B

                               Medicare List of Hospital-Acquired Conditions
                               The Centers for Medicare & Medicaid Services (CMS) list of
                               hospital-acquired conditions is divided into 10 categories. Effective
                               October 1, 2008, CMS no longer pays a higher reimbursement for
                               hospitalizations complicated by these categories of conditions that were
                               not present upon admission.

                               Table B-1: Medicare List of Hospital-Acquired Conditions
                                  01. Foreign object retained after surgery
                                  02. Air embolism
                                  03. Blood incompatibility
                                  04. Pressure ulcers (stages III and IV)
                                  05. Falls
                                     A.    Fracture
                                     B.    Dislocation
                                     C.    Intracranial injury
                                     D.    Crushing injury
                                     E.    Burn
                                     F.    Electric shock
                                  06. Manifestations of poor glycemic control
                                     A.    Hypoglycemic coma
                                     B.    Diabetic ketoacidosis
                                     C.    Nonkeototic hyperosmolar coma
                                     D.    Secondary diabetes with ketoacidosis
                                     E.    Secondary diabetes with hyperosmolarity
                                  07. Catheter-associated urinary tract infection
                                  08. Vascular catheter-associated infection
                                  09. Deep vein thrombosis/pulmonary embolism associated with
                                     A.    Total knee replacement
                                     B.    Hip replacement
                                  10. Surgical site infection
                                     A.    Mediastinitis after coronary artery bypass graft
                                     B.    Associated with certain orthopedic procedures involving the
                                              a.        Spine
                                              b.        Neck
                                              c.        Shoulder
                                              d.        Elbow
                                     C.    Associated with certain bariatric surgical procedures for obesity
                                              a.        Laprascopic gastric bypass
                                              b.        Gastroenterostomy
                                              c.        Laparoscopic gastric restrictive surgery
                               Source: Fiscal Year 2009 Final Inpatient Prospective Payment System Rule, 73 Fed. Reg. 48434,
                               48490–48491 (Aug. 19, 2008).

O E I - 0 6 - 0 8 - 0 0 2 21    ADVERSE EVENTS     IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                          31
A P P
             A EP N P D EI N
                            X
                              DB I X                          ~       C


                               Glossary of Selected Clinical Terms 41

                               Acidosis—An abnormal condition of reduced alkalinity of the blood and
                               tissues that is marked by sickly sweet breath, headache, nausea and
                               vomiting, and visual disturbances and is usually a result of excessive
                               acid production.
                               Acute renal failure—A sudden loss of the ability of the kidneys to remove
                               waste and concentrate urine without losing electrolytes.
                               Anemia—A condition in which the blood is deficient in red blood cells, in
                               hemoglobin, or in total volume.
                               Anoxic brain damage—Brain damage that occurs when the brain does
                               not receive sufficient oxygen.
                               Atrial fibrillation—Very rapid uncoordinated contractions of the atria of
                               the heart resulting in a lack of synchronism between the heartbeat and
                               pulse beat.
                               Blood clot—A coagulated mass produced by clotting of blood.

                               Coronary artery bypass graft—Heart bypass surgery performed to route
                               blood flow around clogged arteries supplying the heart.
                               Deep vein thrombosis—A condition marked by the formation of a
                               thrombus within a deep vein (as of the leg or pelvis) that may be
                               asymptomatic or be accompanied by symptoms (such as swelling and
                               pain) and that is potentially life threatening if dislodgment of the
                               thrombus results in pulmonary embolism.
                               Enterovirus Disease—A kind of ribonucleic virus that multiplies
                               especially in the gastrointestinal tract but may infect other tissues, such
                               as nerve and muscle.
                               Hypotension—Abnormally low pressure of the blood; also called low
                               blood pressure.
                               Hypoglycemia—Abnormal decrease of sugar in the blood.




                                 41 National Institutes of Health, U.S. National Library of Medicine,   Medline Plus
                               Medical Dictionary, updated February 4, 2003. Available online at
                               http://www.nlm.nih.gov/medlineplus/mplusdictionary.html. Accessed on June 23, 2009.



O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                     32
A P P           E N D I X               ~         C


                                Pleural effusion—An oozing of fluid from the blood or lymph into a
                                pleural cavity.
                                Potassium deficiency—Also known as hypokalemia, a lower than
                                normal amount of potassium in the blood. It may result from a number
                                of conditions.
                                Pressure ulcer—An ulceration of tissue deprived of adequate blood
                                supply by prolonged pressure; called also decubitus, decubitus ulcer,
                                and pressure sore.
                                Pulmonary embolism—A sudden blockage of a lung artery or one of its
                                branches that is produced by foreign matter; most often a blood clot
                                originating in a vein of the leg or pelvis.
                                Sepsis—A systemic response typically to a serious, usually localized
                                infection (as of the abdomen or lungs) especially of bacterial origin that
                                is usually marked by abnormal body temperature and white blood cell
                                count, tachycardia, and tachypnea; specifically, systemic inflammatory
                                response syndrome induced by a documented infection.
                                Urinary tract infection—An infection of the tract through which urine
                                passes. It consists of the renal tubules and renal pelvis of the kidney,
                                the ureters, the bladder, and the urethra.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS     33
                    A P P E N D I X                                ~           D

                                     Case Study Protocol for Nurse Reviews
                                     Figure D-1 presents the form used by nurses to record the results of
                                     medical record reviews for the first stage for the case study. Figure D-2
                                     contains the Institute for Healthcare Improvement (IHI) Global Trigger
                                     Tool (GTT) worksheet..
Figure D-1: Nurse Review Results Form

IHI GTT – TRIGGER TOOL RESULTS – OEI-06-08-00220                                              Start Time:__________AM / PM

DATE: __________ RN ID: __________ OIG CASE ID: __________ HOSPITAL: ______________

 Beneficiary Information

 NAME: ________________________________                                               MR#: ___________________________



PHYSICIAN REVIEW INFORMATION

Should this case be reviewed by a physician?
         YES, Adverse Event Identified
         YES, Other (please explain reason in notes below)
         NO
Notes:




ADVERSE EVENT INFORMATION
                                                                        Harm Category Key:
Assign AE Number:_______(#) of _______(#)
(Ex: 2 of 3 – this is 2nd of 3 adverse events                           E – Temporary harm, intervention required
identified for this patient)                                            F – Temporary harm, initial or prolonged hospitalization
                                                                        G – Permanent patient harm
Harm Category: _________                                                H – Life-sustaining intervention required
                                                                        I – Contributing to death
Adverse Event Description:




Notes to Physician about Adverse Event (e.g., date, location in chart, questions)




                                                                                                    End Time:__________AM / PM

      O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                           34
   A P P            E N D I X               ~         D


Figure D-2: IHI GTT Worksheet (2007) 42




                                      42 F.A. Griffin and R.K. Resar,
                                                                    IHI Global Trigger Tool for Measuring Adverse Events,
                                    IHI Innovation Series white paper. Cambridge, MA: Institute for Healthcare Improvement
                                    Innovation Series 2007, Appendix B.



     O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                35
         A P P E N D I X                                    ~       D
                                                                     E



                                Medicare Beneficiary Interview Questions
                                Table E-1 provides the list of the questions asked of Medicare
                                beneficiaries to screen for possible events that may have occurred during
                                the target hospitalization in the case study.


Table E-1. Beneficiary Interview Questions

  Part A: General Questions
  1. Why did you go to the hospital?

  2. In general, were there any problems that happened during this hospital stay? (If NO, go to Question 4.)

         If YES or UNSURE/ CANNOT DECIDE:
              A. Please tell me more about that.
              B. Please describe how this affected you.
              C. How, if at all, did this affect the rest of your medical care at this hospital?
              D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                   physician, nurse, or someone else from this hospital tell you about it?

  3. Were there any other problems? (If NO, go to Question 4.)

       If YES or UNSURE/ CANNOT DECIDE:
            A. Please tell me more about that.
            B. Please describe how this affected you.
            C. How, if at all, did this affect the rest of your medical care at this hospital?
            D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                 physician, nurse, or someone else from this hospital tell you about it?

  4. Was there anything [else] that seemed unusual about your medical care or anything else during your stay in this
  hospital? ( If NO, go to Question 5)

       If YES or UNSURE/ CANNOT DECIDE:
            A. Please tell me more about that.
            B. Please describe how this affected you.
            C. How, if at all, did this affect the rest of your medical care at this hospital?
            D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                 physician, nurse, or someone else from this hospital tell you about it?

                                                                                                       continued on next page




 O E I - 0 6 - 0 8 - 0 0 2 21    ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                       36
A P P           E N D I X                 ~         E



Table E-1. Beneficiary Interview Questions

 Part B: Medication Questions
 5. Did you receive any medications or anesthesia during this hospital stay? (If NO, go to Question 8.)

 6. Were there any problems with the medication you were given? (If NO, go to Question 8.)

      If YES or UNSURE/ CANNOT DECIDE:
           A. Were you given the wrong type of medication? Yes or No.
           B. Were you given the wrong dosage or amount of medication? Yes or No.
           C. Did you have an allergic reaction to the medication? Yes or No.
           D. Or did you have some other problem with the medication? Yes or No.
           E. Was the medicine administered correctly? Yes or No.

      Please tell me more about that [these issues]:
           A. What was the name of the medication? If you can’t remember the name, please tell me what the
                medication was for: [Name/ Purpose]
           B. Please describe how this affected you.
           C. How, if at all, did this affect the rest of your medical care at this hospital?
           D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                physician, nurse, or someone else from this hospital tell you about it?

 7. Were there any other problems related to the medication you received during your stay at this hospital? (If NO, go to
 Question 8.)

      If YES or UNSURE/ CANNOT DECIDE:
           A. Please tell me more about that.
           B. Please describe how this affected you.
           C. How, if at all, did this affect the rest of your medical care at this hospital?
           D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                physician, nurse, or someone else from this hospital tell you about it?


Part C: Procedure Questions
 8. Did you have any surgeries or procedures in this hospital stay? (If NO, go to Question 11.)

 9. Were there any problems related to the surgery? (If NO, go to Question 11.)

      If YES:
           A.          Please tell me more about that.
           B.          Please describe how this affected you.
           C.          How, if at all, did this affect the rest of your medical care at this hospital?
           D.          Describe how you became aware of this problem. For example, did you notice it yourself or did a
                       physician, nurse, or someone else from this hospital tell you about it?

 10. Were there any other problems related to the surgery? (If NO, go to Question 11.)

      If YES:
           A.          Please tell me more about that.
           B.          Please describe how this affected you.
           C.          How, if at all, did this affect the rest of your medical care at this hospital?
           D.          Describe how you became aware of this problem. For example, did you notice it yourself or did a
                       physician, nurse, or someone else from this hospital tell you about it?

                                                                                                            continued on next page




 O E I - 0 6 - 0 8 - 0 0 2 21     ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                         37
A P P              E N D I X               ~           E



Table E-1. Beneficiary Interview Questions

 Part C: Procedure Questions (Continued)
 11. Did you have any blood transfusions while you were in this hospital stay? (If NO, go to Question 14.)

 12. Were there any problems related to the transfusion? (If NO, go to Question 14.)

      If YES or UNSURE/ CANNOT DECIDE:
           A. Please tell me more about that.
           B. Please describe how this affected you.
           C. How, if at all, did this affect the rest of your medical care at this hospital?
           D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                physician, nurse, or someone else from this hospital tell you about it?

 13. Were there any other problems related to the blood transfusion? (If NO, go to Question 14.)

      If YES or UNSURE/ CANNOT DECIDE:
           A. Please tell me more about that.
           B. Please describe how this affected you.
           C. How, if at all, did this affect the rest of your medical care at this hospital?
           D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                physician, nurse, or someone else from this hospital tell you about it?

 14. Were there any problems with the equipment? (If NO, go to Question 15.)

      If YES or UNSURE/ CANNOT DECIDE:
           A. Please tell me more about that.
           B. Please describe how this affected you.
           C. How, if at all, did this affect the rest of your medical care at this hospital?
           D. Describe how you became aware of this problem. For example, did you notice it yourself or did a
                physician, nurse, or someone else from this hospital tell you about it?

 Part D: Infections and Other Issues
 15. Did you develop any infections during this hospital stay? (If NO, go to Question 17.)

      If YES:
           A.         Please tell me more about that.
           B.         Please describe how this affected you.
           C.         How, if at all, did this affect the rest of your medical care at this hospital?
           D.         Describe how you became aware of this problem. For example, did you notice it yourself or did a
                      physician, nurse, or someone else from this hospital tell you about it?

 16. Did you develop any additional infections during this hospital stay that we have not already discussed? (If NO, go
 to Question 17.)

      If YES:
           A.         Please tell me more about that.
           B.         Please describe how this affected you.
           C.         How, if at all, did this affect the rest of your medical care at this hospital?
           D.         Describe how you became aware of this problem. For example, did you notice it yourself or did a
                      physician, nurse, or someone else from this hospital tell you about it?

                                                                                                            continued on next page




 O E I - 0 6 - 0 8 - 0 0 2 21    ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                          38
A P P             E N D I X                   ~       E



Table E-1. Beneficiary Interview Questions
   Part D: Infections and Other Issues (Continued)
   17. Did you develop any bedsores during the hospital stay? (If NO, go to Question 18.)

        If YES:
             A.         Please tell me more about that.
             B.         Please describe how this affected you.
             C.         How, if at all, did this affect the rest of your medical care at this hospital?
             D.         Describe how you became aware of this problem. For example, did you notice it yourself or did a
                        physician, nurse, or someone else from this hospital tell you about it?

   18. Did you ever fall during this hospital stay? (If NO, go to Question 19.)
        If YES:
             A.         Please tell me more about that.
             B.         Please describe how this affected you.
             C.         How, if at all, did this affect the rest of your medical care at this hospital?

   19. Did you ever feel unsafe during this hospital stay? (If NO, go to question 20.)

        If YES:
             A.         Please tell me more about that.
             B.         Please describe how this affected you.
             C.         How, if at all, did this affect the rest of your medical care at this hospital?

   20. Did a physician or other health care official tell you that you received the wrong diagnosis while you were in this
   hospital? (If NO, go to Question 21.)
        If YES:
             A.         Please tell me more about that.
             B.         Please describe how this affected you.
             C.         How, if at all, did this affect the rest of your medical care at this hospital?

   21. Did you discover any problems with the care you received at this hospital, once you were discharged? (If NO, go to
   Question 22.)
        If YES:
             A.         Please tell me more about that.
             B.         Please describe how this affected you.
             C.         How, if at all, did this affect the rest of your medical care at this hospital?

   Part E: Hospital Response
   22. Did you file a formal complaint about this hospital stay for any reason? (If NO, go to Question 23.)

        If YES:
             A.         Please describe the nature of the complaint.
             B.         How did this hospital stay respond to your complaint?
             C.         Were you fully satisfied by this hospital stay’s response to your complaint?

   23. Did anyone from this hospital talk to you about the issues you have described today? (Note: Asked only if a
   possible event was discussed in prior questions. (If NO, go to Question 24.)

        If YES:
             A.         If you can recall, who spoke to you about these issues?
             B.         What did they say?
             C.         How, if at all, did they address your concerns?
             D.         Were you fully satisfied by this hospital stay’s response?

   Part F: Close
   24. Is there anything else you would like to tell us about the care you received at this hospital?

Source: Office of Inspector General interview protocol used to collect information about Medicare beneficiaries.




   O E I - 0 6 - 0 8 - 0 0 2 21     ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                      39
        A P P E N D I X                                    ~       F

                               Patient Safety Indicators
                               Table F-1 lists the provider-level Patient Safety Indicators developed by
                               the Agency for Healthcare Research and Quality (AHRQ), which, when
                               flagged, may indicate possible adverse events.



     Table F-1: AHRQ Patient Safety Indicators (Provider-Level)
                                                                                                                     PSI
           Patient Safety Indicators
                                                                                                                  Number
          Complications of anesthesia                                                                                  1

          Death in low mortality                                                                                       2

          Decubitus ulcer                                                                                              3

          Failure to rescue                                                                                            4

          Foreign body left in during procedure                                                                        5

          Iatrogenic pneumothorax                                                                                      6

          Selected infections due to medical care                                                                      7

          Postoperative hip fracture                                                                                   8

          Postoperative hemorrhage or hematoma                                                                         9

          Postoperative physiologic and metabolic derangements                                                        10

          Postoperative respiratory failure                                                                           11

          Postoperative pulmonary embolism or deep vein thrombosis                                                    12

          Postoperative sepsis                                                                                        13

          Postoperative wound dehiscence in abdominopelvic surgical patients                                          14

          Accidental puncture and laceration                                                                          15

          Transfusion reaction                                                                                        16

          Birth trauma - injury to neonate                                                                            17

          Obstetric trauma - vaginal delivery with instrument                                                         18

          Obstetric trauma - vaginal delivery without instrument                                                      19

          Obstetric trauma - cesarean delivery                                                                        20
     Source: AHRQ, Guide to Patient Safety Indicators, AHRQ Quality Indicators. March 2003. Available online at
     http://www.qualityindicators.ahrq.gov/archives/psi/psi_guide_v30.pdf. Accessed on June, 4, 2008




O E I - 0 6 - 0 8 - 0 0 2 21    ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                        40
                   A P P E N D I X                                  ~       G

                                      Case Study Protocol for Physician Reviews
                                      Figure G-1 presents the form used by physicians to record the results of
                                      medical record reviews for the second stage of review in the case study.
                                      Physicians generated one form for each adverse event. Figure G-2 is the
                                      case summary completed by physicians at the end of their reviews. Table
                                      G-1 describes the categories used to classify the level of harm to the
                                      patient caused by the event.


    Figure G-1: Adverse Event Review Form
                                                                                                            CASE ID: _______
            Medical Review Protocol - OIG Case Study of Adverse Events

                                             Adverse Event Review
1. Adverse Event #: ____ (Case # + Alpha)

2. Please briefly identify the adverse event: _______________________________

____________________________________________________________________

3. Please provide a full description of the adverse event, including the:
        circumstances of the adverse event (note as AE),
        possible contributing factors (note as CF), and
        impact of the adverse event on the patient (note as PI).


 AE:




 CF:




 PI:




       O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                 41
   A P P             E N D I X               ~         G


Figure G-1: Adverse Event Review Form (Continued)
                                                                                                           CASE ID: ______

4. Using the NCC MERP categories of harm, what level of harm resulted from the event?

                  E – Temporary harm, intervention required
                  F – Temporary harm, initial or prolonged hospitalization
                  G – Permanent patient harm
                  H – Life-sustaining intervention required
                  I – Contributing to death

5. Does the harm incurred appear to be the result of a “cascade”?

                  Yes (If yes, please insure that Q3 includes the sequence of occurrences.)
                  No

         If yes, please lay out the sequence of occurrences below (with arrows):




6. On what date or range of dates did the adverse event occur?




7. During which time period did the adverse event occur?
         During time in emergency department
         During time in observation
         During the targeted inpatient hospitalization
         Other, please describe:




      O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                42
    A P P            E N D I X               ~         G


Figure G-1: Adverse Event Review Form (Continued)
                                                                                                                CASE ID: ______

8. Please review the provided billing summary of diagnosis and procedure codes. Which (if any)
appear to result from this adverse event?


                      ICD-9 Code                                                            Brief Description




9. Which case flags reflected information about the specific adverse event? (Check all that apply.)

                  Patient interview
                  Global Trigger Tool summary
                  POA analysis
                  PSI analysis
                  Hospital incident report or other hospital report
                  No case flags reflected this adverse event

10. Is there anything additional you would like to note about the case flags for this adverse event?
(case flag or element of a case flag that was particularly valuable in leading you to the event, thoughts
about selecting case flags for our future work, etc.)




      O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                     43
   A P P           E N D I X               ~         G


Figure G-1: Adverse Event Review Form (Continued)




    O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   44
    A P P            E N D I X               ~         G


Figure G-2: Case Summary
                                                                                                               CASE ID: _______
           Medical Review Protocol - OIG Case Study of Adverse Events
                                                  Case Cover Page

Review Date:               _______________, 2008                                          Hospital: __________________
                                                                                          Patient name: _______________
Physician Initials: _________________
                                                                                          OIG ID#:    ______   MR#: ________

Directions:               Review the provided case documents and medical record.
                          Complete Adverse Event Review for any adverse events.
                          Complete Summary Questions and Exit Check List.

Beneficiary Information

 Name: _______________________________                                     D.O.B.:_________________

 Dates of Stay: __________________________                                L.O.S. (days):____________

 Principal Diagnosis: _______________________

 Flags:                      ___ Beneficiary Interview                                ___ IHI Global Trigger Tool Review
                             ___ POA Analysis                                         ___ Hospital Incident Report
                             ___ PSI Analysis                                         ___ Other: ________________


Summary Questions

 1. Is this review complete?
  Yes
  Partially complete, estimate _______ additional time needed

 2. Did you identify any adverse event(s)?
  Yes, how many? _______________
  No

     AE #s and brief descriptions:
     ________            _____________________________________
     ________            _____________________________________
     ________            _____________________________________
     ________            _____________________________________

 3. Should this case be targeted for further discussion?
  Yes
  No
 If yes, please briefly state reason:




      O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                       45
    A P P            E N D I X                   ~         G


Figure G-2: Case Summary (Continued)
                                                                                                                   CASE ID: _______

                                                  Case Exit Check List
1. Which of the following information sources did you review? (Check all that apply.)
                  Medical record
                  Results of administrative data reviews
                  Patient interview
                  Hospital incident report or other hospital report
                  Other, please describe:_____________________________________________________

2. Please circle on the scale below to assess the documentation in the medical record. A scale of
1=worst (unclear, difficult to determine event) and 5=best (well-described and definitive).

1                                    2                                  3                                      4             5

3. Was the medical record recorded as (check both if applies):
        Paper records?
                 Easy to navigate
                 Some difficulty navigating
                 Difficult to navigate
        Electronic records?
                 Easy to navigate
                 Some difficulty navigating
                 Difficult to navigate

4. Did you consult with another physician reviewer?
         Yes
         No
        If yes, please describe: _________________________________________________________

5. How much time did you spend on this review (including any consultation with others)?
        Less than 30 minutes
        Between 30 minutes – one hour
        Between one hour – two hours
        More than two hours
        Difficult to determine because of stop and start and/or consultation

6. Did this case suggest modifications of this form to improve subsequent studies?
         Yes
         No
        If yes, please describe: ________________________________________________________

         ___________________________________________________________________________

7. Is there anything else about this case that you would like to note? _________________________

    ______________________________________________________________________________




      O E I - 0 6 - 0 8 - 0 0 2 21       ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                     46
A P P           E N D I X                 ~       G


                                Patient Harm Index
                                Table G-1 lists the categories of patient harm adapted by the Institute
                                for Healthcare Improvement (IHI) and used by the Office of Inspector
                                General in the case study. The National Coordinating Council for
                                Medication Errors Reporting and Prevention (NCC MERP) developed an
                                index to categorize the level of patient harm resulting from medication
                                errors. Researchers have modified this index for use in measuring and
                                distinguishing adverse events of all types, rather than only medication
                                errors. IHI adapted the index to reflect only events that cause harm to
                                patients.

                                Table G-1: IHI Global Trigger Tool Adaptation of the NCC
                                MERP Index to Categorize Harm

                                 Category         Description

                                      E           Temporary harm to the patient and required intervention

                                      F           Temporary harm to the patient and required an initial or prolonged hospital stay

                                      G           Permanent patient harm

                                      H           Intervention required to sustain life

                                      I           Patient death

                                Source: F.A. Griffin and R.K. Resar, IHI Global Trigger Tool for Measuring Adverse Events, IHI Innovation
                                Series white paper. Cambridge, MA: Institute for Healthcare Improvement Innovation Series 2007, pp. 4–5.




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                                     47
                                 A P P E N D I X                                   ~       H

                                                                  Results of Screening Methods



Figure H-1: Results of Screening Methods Used for Identifying Events in Case Study

                                                                                 Flags Associated
    Flags by                                                                      With Events by
Screening Method                                                                 Screening Method                              Events*           Events
    (n = 662)                                                                        (n = 254)                              (Unduplicated)      (n = 120)


   Present on
 Admission (POA)                                                                    POA Analysis
    Analysis                                                                         (n = 111)
    (n = 296)
                                                                                                                             Unique Events
                                                                                                                           Identified Through
                                                                                                                           Screening Methods
   Nurse Review                                                                     Nurse Review                               (n = 114)
     (n = 227)                                                                        (n = 104)

                                            Physician Review of
                                             Medical Records
                                                With Flags
    Beneficiary                                                                      Beneficiary
                                                                                                                                                 Events
    Interviews                                                                       Interviews
                                                                                                                                                (n = 120)
     (n = 71)                                                                         (n = 21)




 Hospital Incident                                                                Hospital Incident
    Reports                                                                          Reports
    (n = 55)                                                                          (n = 9)



   Patient Safety
  Indicators (PSI)                                                                   PSI Analysis
      Analysis                                                                         (n = 9)
      (n = 13)

                                                                                                                            Events Identified
                                                                                                                             Only Through
                                                                                                                           Physician Reviews
                                                                                                                                 (n = 6)




Source: Office of Inspector General analysis of 278 Medicare beneficiary hospitalizations in 2 selected counties, 2008.
*Some flags were associated with more than one event, and some events were identified through more than one flag.




                     O E I - 0 6 - 0 8 - 0 0 2 21    ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS                        48
        A P PEN D                          x

                    Agency Comments: Agency for Healthcare Research and Quality



                       DEPARTMEN1'OF HEALTH & HUMAN SERVICES                                    Agency· for H~althcare.
                                                                                                Research and Quality

                                                                                               540 Gaither Road
                                                                                               Rockville MD 20850
                                                                                               www,ahrq.gQv


                                                       DEC 162009




                      TO:            Daniel Levinson, Inspector GeneraJ

                      FROM:          Cal'olynM, Clancy,M,D•• Dii'ectol'   /S/
                      SUBJECT:       Comments on draft Office of Inspec(orGenetal Report entitled, "Adverse
                                     BVeiltsin Hospitals: Metl1odsJ'or Identffying Events"


                      Thmlk you [wr the oPpOI:lunity to review the draft Qffj.ce·oflirspe.ctor General Report
                      entftled: "Ad.\lerse EVents in Hospitals: Methbds fDr Identifying Events," The Agency
                      for Hefllthcare Re:seal'ch.and Quality (AHRQ)cqllctJfswith thereport.as written.

                      If you have any questions; please feel freeto call Wendy Perry of my staff at 301-427­
                      l216.                                                        . ,                    .




oE1-0 6-08-00 221       ADVERSE EVENTS IN HOSPITALS: METHODS FOR IDENTIFYING EVENTS                                       49
   APPEND                         X



               Agency Comments: Centers for Medicare &Medicaid Services



                       DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Centers lor Medicare & Medicaid Services
                                                                                       -----------------
                                                                                                   Administrator
                                                                                                   Washington. DC 20201
                                                                    DEC 1 7 2009


                   TO: 	           Daniel R. Levinson 

                                   Deputy Inspector General 


                   FROM: 	         Charlene Frizzera 
 /S/
                                   Acting Administrator 


                   SUBJECT: 	 Office OfInspector General (OlG) Draft Report: "Adverse Events in Hospitals: 

                              Methods for Identifying Events," (OEI-06-08-00221) 



                   Thank you for the opportunity 10 review and comment on this draft report. "Adverse Events in
                   Hospitals: Methods for Identifying Events." This is a particularly useful report that offers timely
                   recommendations. The OlG undertook original data collection to assess five different methods
                   of identifying the occurrence of serious adverse events in short-term acute care hospitals. The
                   OlG then identified strengths and weaknesses of each method. Finally, the OlG explored
                   implications of its findings with regard to the ability of the Centers for Medicare & Medicaid
                   Services (CMS) to monitor adverse events, promote value-based purchasing, and enforce quality
                   of care and patient safety requirements.

                   We appreciate the original contribution that this study makes in advancing the patient safety
                   agenda in hospitals and bolstering CMS efforts to prevent adverse events. As the OlG noted,
                   CMS enforces quality of care expectations through its survey and certification onsite reviews.
                   eMS has actively advanced value-based purchasing across a variety of provider types. CMS has
                   also instituted payment policies that prevent coverage of certain serious but clearly avoidable
                   medical events, often referred to as "Never Events." Information about the most recent policies
                   (relating to performance of the wrong surgery or surgery on the wrong body part or on the wrong
                   patient) can be found at:
                   http://W'oNw.cms.hhs.gov/MLNMattersArticlcs/dowl1load~nY!M6405.pdf.


                   We endorse each recommendation addressed to eMS, and provide more detail below.

                   OIG Recommendation 1:

                   eMS and the Agency for Healthcare Research and Quality (AHRQ) should explore opportunities
                   to identify events when conducting' medical record reviews for other purposes.

                   CMS Response

                   We agree with the recommendation and will consider creating or taking advantage of existing
                   opportunities to identi fy adverse events, including consideration of the specific options identified
                   by the OlG.




oEI-06-08-002 21           ADVERSE EVENTS IN HOSPITALS:   METHODS FOR IDENTIFYING EVENTS                                              50
A P P           E N D I X               ~         I




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   51
A P P           E N D I X               ~         I




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   52
A P P           E N D I X               ~             I




 O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   53
        A C K N O W L E D G M E N T S

                               This report was prepared under the direction of Kevin K. Golladay,
                               Regional Inspector General for Evaluation and Inspections in the Dallas
                               regional office, and A. Blaine Collins, Deputy Regional Inspector
                               General.

                               Amy Ashcraft and Ruth Ann Dorrill served as the team leaders for this
                               study. Deborah Cosimo served as the lead analyst. Other principal
                               Office of Evaluation and Inspections staff from the Dallas regional office
                               who contributed to the report include Anthony Guerrero-Soto, Deborah
                               McGurk, and Lyndsay Patty; other central office staff who contributed
                               include Rob Gibbons and Rita Wurm.




O E I - 0 6 - 0 8 - 0 0 2 21   ADVERSE EVENTS   IN   HOSPITALS: METHODS   FOR   IDENTIFYING EVENTS   54
               Office of Inspector General
                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
